LOAN DEFAULT COULD RESULT IN
  MISUSE OF FUNDS AT TULSA
   INTERNATIONAL AIRPORT
    Federal Aviation Administration
     Report Number: AV-2004-058
       Date Issued: May 6, 2004
   U.S. Department of
                                                              Memorandum
   Transportation
   Office of the Secretary
   of Transportation
   Office of Inspector General


Subject:     ACTION: Loan Default Could Result in Misuse                                          Date:     May 6, 2004
             of Airport Funds at Tulsa International Airport
             AV-2004-058
  From:      Alexis M. Stefani                                                                 Reply to
                                                                                               Attn. of:    JA-10:x60500
             Principal Assistant Inspector General
              for Auditing and Evaluation
       To:   Federal Aviation Administrator

   This report presents the results of our review of potential misuse of airport funds at
   Tulsa International Airport (Airport). Our objective was to determine whether the
   Airport’s agreement to purchase property used as collateral in a loan to Great
   Plains Airlines (Great Plains) could result in the misuse of airport funds.


   RESULTS IN BRIEF
   In responding to a request from Senator James M. Inhofe, we reviewed loan
   transactions involving the Tulsa International Airport.1 Specifically, the Airport
   entered into an agreement with the Tulsa Industrial Authority (TIA)2 that may
   require the Airport to purchase property used as collateral in a loan to Great
   Plains. This agreement appears to have been made without regard to the fair
   market value of the property or whether the Airport had a valid need to purchase
   the property to make airport improvements.

   The Airport planned to use $9.1 million generated from Passenger Facility
   Charges (PFC) to purchase 30 acres of property for a runway and taxiway
   extension. The property the Airport planned to purchase was used as collateral for
   a $30 million loan to Great Plains as part of an agreement between the Airport,

   1
       The Tulsa International Airport is leased to Tulsa Airports Improvement Trust (TAIT). TAIT is a trust sponsored by
       the City of Tulsa for improving the buildings, structures, and facilities of Tulsa area airports. TAIT is the entity that
       the Federal Aviation Administration recognizes for purposes of Airport Improvement Program grants and Passenger
       Facility Charges project approvals. All references to the Airport in this memorandum are synonymous with TAIT.
   2
       The Tulsa Industrial Authority is an agency created to promote the general economic welfare of Tulsa area citizens.
       The City of Tulsa directly benefits from activities of the Authority.
                                                                                              2


TIA, and the Bank of Oklahoma. Under this agreement, if the airline defaults on
the loan, the Airport would purchase the property at an amount equal to the
outstanding debt owed by the airline.

While use of PFC funds to purchase property for airport projects can be
appropriate to enhance capacity or safety,3 this potential property transaction raises
serious questions because (1) the fair market value of the 30 acres the Airport
planned to purchase appears to be significantly lower than the amount of PFC
funds the Airport requested to collect, and (2) prior project descriptions in the
Airport’s capital improvement plans did not identify a need for this property.
Further, the Airport did not provide support in its PFC application to show that the
property was needed to extend the runway and taxiway.

In a September 2003 application, the Airport requested approval to collect and use
approximately $10.2 million in PFC funds to finance a runway and taxiway
extension project, including the acquisition of 30 acres of land. Because the
Airport did not provide sufficient details to clarify its need for the land, the
Federal Aviation Administration (FAA) requested that the Airport provide
supplemental information to support its request, including documentation of the
amount budgeted for the land acquisition. In response, the Airport indicated that
approximately $9.1 million was needed to acquire 30 acres of land. The Airport
did not provide any documentation to indicate the fair market value of the land. In
December 2003, FAA advised the Airport that it would not approve the land
acquisition portion of the project, indicating that it did not have sufficient
information to determine if the land acquisition was an eligible PFC project.

On January 23, 2004, Great Plains filed for Chapter 11 bankruptcy. Although it
received a 90-day extension to repay the loan (originally due in December 2003),
the extension expired on March 21, 2004. Great Plains still owes about $7 million
of the loan amount. If the Bank declares Great Plains in default, the terms of the
support agreement require the Airport to purchase the property for the outstanding
balance of the loan. According to documentation provided to us by an Airport
official, the Airport has until December 2005 to obtain the funds to meet its
obligation to purchase the property.

FAA policies and procedures prohibit airports from providing direct subsidies to
airlines.4 In a legal analysis prepared at the request of Airport management on
FAA’s revenue diversion policy, it was noted that:




3
    49 U.S.C. Section 40117; Passenger Facility Charge, FAA Order 5500.1, (August 9, 2001).
4
    FAA Policy and Procedures Concerning the Use of Airport Revenue, 64 Fed. Reg. 7696, 7709-10,
    (February 16, 1999).
                                                                                 3


      In light of the current law, regulations and regulatory
      pronouncements concerning airport requirements for self-
      sufficiency, the avoidance of revenue diversion, and prohibition
      against direct subsidy of air carrier operation or service, we are
      lead [sic] to the conclusion that to avoid regulatory scrutiny, TAIT’s
      support of the Tulsa Industrial Authority - Bank of Oklahoma
      [BOK] financing for Great Plains Holding Company et al. must be in
      the nature of a real estate transaction. Even with the transaction
      structured in that nature, we are not in a position to opine that in the
      event of a trigger event which would require TAIT action under the
      Support Agreement, the use of airport revenues to purchase all or a
      portion of Air Force Plant No. 3 would not be subject to regulatory
      scrutiny or audit. However, we believe that to the extent the real
      estate transaction can be narrowed by the size, nature or character of
      property and/or facilities encumbered by the TIA-BOK transaction,
      that would dramatically lessen our concern of regulatory review
      and/or audit of the “support” transaction.

By becoming a party to the real estate transaction to help finance the start-up of
the airline and agreeing to pay off any outstanding loan balance, the Airport
incurred a contingent liability that will remain until the airline pays the loan in
full. However, should the loan be declared in default and the Airport be required
to pay off the outstanding loan balance, this action would constitute a direct
subsidy to the airline in violation of FAA policy. Further, should the Airport use
Airport funds to pay off the loan, it would result in either a diversion of Airport
revenue, inappropriate use of PFC funds, or both.

In the event that Great Plains defaults, FAA should take steps to ensure that the
Airport does not divert revenues intended for legitimate Airport purposes to pay
off the loan. In addition, FAA should evaluate the appropriateness of the Great
Plains loan transaction and establish policies that prevent airport sponsors from
entering into agreements that could result in the misuse of airport funds.


Recommendations
To ensure that the Airport does not inappropriately use PFC or other Airport funds
to purchase the property, we are recommending that FAA require the Airport to:

• Support any future requests to fund property acquisition costs for the 30 acres
   of land with a valid appraisal of the property, and

• Validate that there is a legitimate need to acquire the property to extend the
   runway and taxiway.
                                                                                  4


In addition, FAA should:

• Ensure that Airport funds are not inappropriately disbursed to cover the cost of
   the Great Plains loan, and

• Evaluate the appropriateness of the Great Plains loan transaction and establish
   policies that will preclude airport sponsors from entering into agreements
   (similar to the one used to support the Great Plains loan) that create contingent
   liabilities and place airport funds at risk of being used for purposes not
   permitted under Federal law.


BACKGROUND
Early in 2000, a Tulsa economic development group recommended that the City of
Tulsa support a loan to Great Plains. Great Plains would provide direct air service
from Tulsa to U.S. east and west coast locations. City officials believed that
helping Great Plains would fuel economic development in the Tulsa area. The
City of Tulsa transferred 344 acres of land adjacent to the Airport to the TIA so
that TIA could use the land as collateral for the loan to Great Plains. On
December 21, 2000, the Bank of Oklahoma (Bank) and TIA entered into a loan
agreement to issue two revenue notes of $15 million each. TIA then provided a
loan totaling $30 million to Great Plains.

Also on December 21, 2000, the Bank, TIA, and Tulsa Airports Improvement
Trust signed a separate “support agreement” in which the Airport agreed that if
Great Plains defaulted on its loan, the Airport would purchase the property for an
amount equal to the outstanding debt owed by Great Plains plus any other unpaid
amounts due under the loan agreement (i.e., interest and collection costs, which
include attorney fees of a minimum of 15 percent of all sums payable).

In 2001, Great Plains paid back one of the $15 million revenue notes using state-
issued tax credits. Since the agreements were signed, the Bank has disbursed
$8.25 million to Great Plains from the second $15 million note. The remaining
$6.75 million was held in an escrow account to protect the Bank’s interest in the
loan.

Under the terms of the note, Great Plains was required to make monthly payments
until December 21, 2003, at which time it was to have paid the outstanding loan
amount in full. In January 2004, we were informed by an Airport official that the
Bank granted Great Plains a 90-day extension to repay the loan. According to the
City official, Great Plains still owes the Bank approximately $7 million.
                                                                                                                      5


SCOPE AND METHODOLOGY
The audit was conducted between March 2003 and April 2004. Our review
included interviewing officials from the Airport, the City of Tulsa, and FAA;
reviewing Airport documents related to the loan transaction with Great Plains;
reviewing correspondence related to the Airport’s request for PFC funds; and
reviewing FAA policy and procedures related to the use of PFC and Airport
Improvement Program funds. The audit was conducted in accordance with
Government Auditing Standards prescribed by the Comptroller General of the
United States and included such tests as we considered necessary to provide
reasonable assurance of detecting abuse or illegal acts.


FINDING AND RECOMMENDATIONS
In our opinion, there is a significant risk of the misuse of Airport funds if Great
Plains defaults on the loan and the Airport is required to buy the property used as
collateral.5 The Airport requested approval to use PFC funds to purchase 30 acres
of the property to extend a taxiway and runway.6 The airport could not provide,
nor could we find, a property appraisal that would substantiate the value of the
344 acres used as collateral. However, a Great Plains document indicated that the
value of the collateral may be only $3 million, which is substantially lower than
the $9 million the Airport requested to collect in PFC funds to purchase 30 of the
344 acres. Also, we question whether the Airport has a valid need for the 30 acres
because the need to purchase the land to extend the taxiway and runway was not
identified in the Airport’s description of the runway/taxiway extension project
until 2003, after the risk of a potential default became apparent. Key documents
and our analyses are summarized below.

• In an August 2000 memorandum, Airport management noted that if Great
  Plains defaulted, the Airport could use the following sources or a combination
  of these sources to pay off the loan: “Discretionary funds of the Airport
  Trust…; Imposition of a Passenger Facility Charge; Facility funding under the
  Airline Use and Lease Agreements…; FAA entitlements and/or discretionary
  grants; [or] Special Facility Revenue Bond Financing....”

• In December 2000, the Bank, TIA, and Airport entered into a support
  agreement that obligated the Airport to purchase the property if Great Plains

5
    According to loan and support agreement documentation, 344 acres of land adjacent to the Airport was initially
    provided as collateral for the loan to Great Plains. However, once the airline received its operating certificate or
    within 15 months of the loan, TIA was to transfer all but 25 acres of the land back to the City of Tulsa. Therefore,
    the Airport would be required to purchase the remaining 25 acres at an amount equal to the outstanding loan balance.
6
    Our review of land maps included in the PFC application and loan documents determined that the 30 acres the
    Airport wanted to purchase is part of the 344 acres of land originally used as collateral for the loan.
                                                                                6


   defaulted on its loan. Based on our review, the Airport recognized that FAA
   regulations prohibited it from providing a direct subsidy to an airline;
   therefore, the Airport made a decision to construct the agreement as a real
   estate transaction.

• The amount the Airport agreed to pay for the property if Great Plains defaulted
  was not supported by an appraisal performed in conjunction with the loan.
  Airport and City officials told us that they did not obtain an appraisal to
  determine the value of the property prior to entering into the loan agreement.
  A Great Plains representative indicated in an October 2002 memo that the
  collateral (i.e., property) might be valued in the $3 million range. Further,
  because over 300 acres of the property is leased for another 5 to 20 years, the
  cost of breaking the leases to use the property for Airport improvements may
  reduce the fair market value of the property below $3 million.

• Airport documents show that in February 2002, Great Plains requested an
  extension to pay its January, February, and March 2002 loan payments. Later,
  in September 2002, Great Plains, the Airport, and TIA requested that the Bank
  delay any decision to declare Great Plains in default of its loan. A November
  2002 review commissioned by the mayor of Tulsa concluded that Great Plains
  was at risk of defaulting. Because Great Plains continued to be unable to make
  its monthly payments, in March 2003 the Bank began using the $6.75 million
  escrow account to make the payments. However, the Bank did not declare
  Great Plains in default.

• On January 23, 2004, Great Plains filed for Chapter 11 bankruptcy. Although
  it received a 90-day extension to repay the loan, the extension expired on
  March 21, 2004. Nevertheless, Great Plains still owes about $7 million of the
  loan amount (as estimated by City officials), and the Airport is still liable if
  Great Plains is declared in default of its loan agreement.

• Information presented in three Airport planning documents suggests that the
  cost of the land acquisition project was inflated after it became apparent that
  Great Plains might default, given that Great Plains was unable to make its
  monthly payments in 2002.

   − The Airport’s Five-Year Capital Improvement Plan (CIP) for fiscal years
     (FYs) 2004 through 2008, approved by the Airport in April 2003, states that
     the Airport would need to purchase “land adjacent to the airfield which will
     be needed for the extension of Runway 8/26, Taxiway Charlie, Taxiway
     Echo and additional Hangar space.” The CIP disclosed that the total
     estimated cost of the project was $16.8 million but did not indicate how
     much land was needed or the acquisition cost of the land.
                                                                                                                    7


      − A draft version of the CIP that Airport officials provided to us in
        March 2003 did not mention land acquisition in the narrative description,
        even though the total cost was also $16.8 million.

      − Finally, a third document, a prior year capital improvement project
        summary listing for FYs 2002 through 2009, included the project but did
        not indicate there was a need to acquire land. Also, the cost for the project
        in this plan was $10.6 million less than the amount approved in the
        April 2003 CIP, as is shown in the following table.


       Table. Changes in Cost Estimates for the Runway/Taxiway
                          Extension Project
                                                                              April 2003
                                               Project Summary              Five-Year CIP            Increase in
       Type of Funds                            FYs 2002-2009               FYs 2004-2008               Costs

       Airport Improvement
       Program (Entitlement)                        $4,200,000              $ 5,580,000              $ 1,380,000

       Airport Improvement
       Program (Discretionary)                      $            0          $ 3,900,000              $ 3,900,000

       Passenger Facility Charges                   $2,000,000              $ 7,357,000              $ 5,357,000

       Total                                        $6,200,000              $16,837,000              $10,637,000

       Percentage Increase                                                                                   172%

      Therefore, it appears to us that the CIP costs were increased to justify the
      collection of PFC funds to purchase the land and to offset the cost of the loan
      after it became apparent that Great Plains might default. Further, given that
      correspondence from Great Plains indicated that the collateral (344 acres)
      might be worth about $3 million, we question whether the $9.1 million of PFC
      funds the Airport requested to pay for the 30 acres represents its fair market
      value.

• In September 2003, the Airport submitted an application to the FAA to collect
  and use approximately $10.2 million in PFC funds to finance the runway and
  taxiway extension project.7 The application included the acquisition of
  30 acres of land but did not show the amount budgeted for the land, nor the

7
    The Airport also anticipated using $9.5 million of Airport Improvement Program funds for this project.
                                                                                  8


   transactions that had occurred or would need to occur for the Airport to obtain
   the land. FAA requested that the Airport provide supplemental information to
   justify this request, including documentation of the amount budgeted for the
   land acquisition.

• In November 2003, the Airport responded to FAA’s request for supplemental
  information. The Airport indicated that it needed to collect $9.1 million of its
  request from PFC funds for the land acquisition. This amount was needed to
  provide funding to repay $6.3 million in “Bond Capital” and $2.8 million in
  “Interest Expense.” (The Airport planned to sell bonds to the public to finance
  the initial acquisition cost of the land and use PFC funds to repay the bonds
  and related interest expense when due. This is a normal airport practice and
  allowable under FAA’s PFC procedures.) However, no documentation was
  attached to indicate the fair market value of the land.

• In December 2003, FAA advised the Airport that it would not approve the land
  acquisition portion of the project, indicating that “[g]iven the complexity of the
  land issues,” FAA did not have sufficient information to determine if the land
  acquisition was an eligible PFC project.

As of April 22, 2004, the Bank had not declared Great Plains in default of its loan.
Nevertheless, the terms of the support agreement require the Airport to purchase
the property for the outstanding balance of the loan. The loan payoff and related
fees (estimated by City officials to total about $7 million) may be significantly
higher than the fair market value of the property. We could not determine the true
value of the property because, in the records of the transactions we reviewed, we
found no appraisal. Airport and City of Tulsa officials advised us that an appraisal
was not performed to determine the value of property used as collateral prior to
entering into the loan agreement. The only reference to the value of the property
was an October 2002, memorandum prepared by a Great Plains Airlines
representative indicating that its value “may be in the $3 million range.”
According to documentation provided to us by an Airport official, the Airport has
until December 2005 to obtain the funds to meet its obligation to purchase the
property.

As indicated above, your office has already taken initial steps to require that the
Airport properly support requests to use PFC funds. To ensure that the Airport
does not inappropriately use PFC funds or any other Airport funds to purchase the
property in the future, we recommend that FAA consider the results of this review
in any actions it takes in reviewing runway and taxiway expansion projects at the
Airport or any future requests by the Airport to acquire all or portions of the
344 acres.
                                                                                 9


FAA policies and procedures prohibit airports from providing direct subsidies to
airlines. In a legal analysis prepared at the request of Airport management on
FAA’s revenue diversion policy it was noted that:

      In light of the current law, regulations and regulatory
      pronouncements concerning airport requirements for self-
      sufficiency, the avoidance of revenue diversion, and prohibition
      against direct subsidy of air carrier operation or service, we are
      lead [sic] to the conclusion that to avoid regulatory scrutiny, TAIT’s
      support of the Tulsa Industrial Authority - Bank of Oklahoma
      [BOK] financing for Great Plains Holding Company et al. must be in
      the nature of a real estate transaction. Even with the transaction
      structured in that nature, we are not in a position to opine that in the
      event of a trigger event which would require TAIT action under the
      Support Agreement, the use of airport revenues to purchase all or a
      portion of Air Force Plant No. 3 would not be subject to regulatory
      scrutiny or audit. However, we believe that to the extent the real
      estate transaction can be narrowed by the size, nature or character of
      property and/or facilities encumbered by the TIA-BOK transaction,
      that would dramatically lessen our concern of regulatory review
      and/or audit of the “support” transaction.

By becoming a party to the real estate transaction to help finance the start-up of
the airline and agreeing to pay off any outstanding loan balance, the Airport
incurred a contingent liability that will remain until the airline pays the loan in
full. However, should the loan be declared in default and the Airport be required
to pay off the outstanding loan balance, this action would constitute a direct
subsidy to the airline in violation of FAA policy. Further, should the Airport use
Airport funds to pay off the loan, it would result in either a diversion of Airport
revenue, inappropriate use of PFC funds, or both.

In the event that Great Plains defaults, FAA should take steps to ensure that the
Airport does not divert revenues intended for legitimate Airport purposes to pay
off the loan. In addition, FAA should evaluate the appropriateness of the Great
Plains loan transaction and establish policies that prevent airport sponsors from
entering into agreements that could result in the misuse of airport funds.


RECOMMENDATIONS
To ensure that the Airport does not inappropriately use PFC or other Airport funds
to purchase the property, we are recommending that FAA require the Airport to:
                                                                                  10


1. Support any requests for property acquisition with a valid appraisal of the
   property and require that the appraisal appropriately considers the affect of any
   leases on the fair market value of the property.

2. Validate that there is a legitimate need to acquire the property to extend the
   runway and taxiway or to obtain additional hangar space.

In addition, FAA should:

3. Ensure that Airport funds are not inappropriately disbursed to cover the cost of
   the Great Plains loan.

4. Evaluate the appropriateness of the Great Plains loan transaction and establish
   policies that will preclude airport sponsors from entering into agreements
   (similar to the one used to support the Great Plains loan) that create contingent
   liabilities and place airport funds at risk of being used for purposes not
   permitted under Federal law.


MANAGEMENT RESPONSE AND ACTION REQUIRED
We briefed Agency officials in June 2003 on the need to closely scrutinize any
Airport requests to use Airport funds for purchasing the land used as collateral in
TIA’s loan to Great Plains. We also provided a discussion draft to FAA in
March 2004. FAA management advised us that they have not had an opportunity
to review the underlying transactions or documents pertaining to the Great Plains
loan; therefore, they could not comment on the appropriateness of the Airport’s
involvement in the loan transaction. As a result, we have modified our
recommendation to address their concerns.                FAA agreed with our
recommendations to ensure the Airport does not inappropriately use PFCs, or
other Airport funds, to purchase the property and our conclusion that Airport funds
should not be used to pay off the Great Plains loan. They also agreed to take steps
to advise other airports not to enter into agreements, such as the Great Plains loan,
that would place airport funds at risk of being used for purposes not permitted by
Federal law.

In accordance with Department of Transportation Order 8000.1C, we would
appreciate receiving your written comments on this report within 30 calendar days.
Please indicate the specific action taken or planned for each recommendation and
the target date for completion. You may provide alternative courses of action that
you believe would resolve the issues presented in this report.

We appreciate the cooperation and assistance provided by your staff during our
review. If you have any questions concerning this report, please call me at
                                                                        11


(202) 366-1992 or Mr. David Dobbs, Assistant Inspector General for Aviation
Audits, at (202) 366-0500.

                                    #
